No.
IN THE SUPREME COURT OF THE
UNITED STATES

VICTOR J. EDNEY JR. - PETITIONER
versus
EONDRA LAMONE HINES, OFFICER JORDAN WENKMAN; OFFICER BOBBY
KING; SERGEANT DAVID CONLEY; SERGEANT KEITH VAUGHAN RESPONDENT

“ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT”

CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the petition for
writ of certiorari complies with the word limitations and contains 7,697 words,
excluding the parts of the petition that are exempted by the Supreme Court Rule
33.1(d) which are; questions presented, list of parties, table of contents, the table of
cited authorities and the appendix of the petition.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on the Thirtieth day of April 2021.

k

